           U.S. Department of
                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Attestation Engagement –                     Date:    December 13, 2012
           Review of FY 2012 Drug Control Obligation
           Summary and Performance Summary Reports,
           Federal Aviation Administration
           Project No. 13F3010F000

  From:                                                           Reply to
                                                                  Attn. of:   JA-20
           Louis C. King
           Assistant Inspector General for Financial and
            Information Technology Audits

    To:    Federal Aviation Administrator

           On May 1, 2007, the Office of National Drug Control Policy (ONDCP) issued the
           Annual Accounting and Authentication of Drug Control Funds and Related
           Performance Circular (the Circular) which requires agencies to submit drug control
           obligations and performance reports. It further requires inspectors general to review
           these reports.

           As required, the Office of Inspector General (OIG) is initiating an attestation
           engagement of the Federal Aviation Administration (FAA) fiscal year 2012 Drug
           Control Obligation Summary and Performance Summary Reports. Our objective is to
           provide negative assurance as to whether any information came to our attention on the
           basis of the work performed to indicate that management’s assertions are not fairly
           presented, in all material respects, based on the requirements of the Circular. We will
           not express an opinion on the accuracy of FAA’s Drug Control Obligation Summary
           and Performance Summary Reports.

           We will begin our attestation engagement immediately and will contact your audit
           liaison to schedule an entrance conference. The Circular requires we submit our report
           to ONDCP by February 1, 2013. To meet this timeframe, we will need the signed
           fiscal year 2012 reports by December 21, 2012.
                                                                           2

If you have any questions, please call me at (202) 366-1407, or George Banks,
Program Director, at (410) 962-1729.

                                     #

cc: Thomas Johnson, ONDCP
    Richelle Perazich, ONDCP
    DOT Audit Liaison, M-1
    FAA Audit Liaison, AAE-100
